Nos. 20-429, 20-454, 20-539

 

IN THE

Supreme Court of the Hnited States

AMERICAN MEDICAL ASSOCIATION, ET AL.,
Petitioners,
v.

XAVIER BECERRA, ACTING SECRETARY OF HEALTH AND HUMAN SERVICES, ET AL.,
Respondenis.

On Writ of Certiorari to the United States Court of Appeals
for the Ninth Circuit

 

OREGON, ET AL.,
Petitioners,
v.
XAVIER BECERRA, ACTING SECRETARY OF HEALTH AND HUMAN SERVICES, ET AL.,
Respondents.

On Writ of Certiorari to the United States Court of Appeals
for the Ninth Circuit

XAVIER BECERRA, ACTING SECRETARY OF HEALTH AND HUMAN SERVICES, ET AL.,
Petitioners,
v.
MAYOR AND CITY COUNCIL OF BALTIMORE,
Respondents.

 

On Writ of Certiorari to the United States Court of Appeals
for the Fourth Circuit

CERTIFICATE OF COMPLIANCE

 
As required by Supreme Court Rule 33.1(h), I certify that the Reply of

AAPLOG, CMDA, and CMA in Support of Motion to Intervene or to Present Oral
Argument as Amici Curiae contains 3,407 words, excluding the parts of the brief that

are exempted by Supreme Court Rule 33.1(d).

Executed on March 22, 2021.

 

IANCE DEFENDING FREEDOM
440 First Street NW
Suite 600
Washington, DC 20001
(616) 450-4235
jbursch@adflegal.org
